No. 19-1291

In the Supreme Court of the United States
CHARLES HAMNER,
Petitioner,
v.
DANNY BURLS, ET AL.,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief in Opposition
complies with the word limits of Supreme Court Rule 33.1(g)(ii). The Brief in Opposition contains 8,821 words, excluding the sections excluded by Supreme Court
Rule 33.1(d).

/S/ NICHOLAS J. BRONNI
NICHOLAS J. BRONNI
Arkansas Solicitor General
Counsel of Record
OFFICE OF THE ARKANSAS
ATTORNEY GENERAL
323 Center St., Suite 200
Little Rock, AR 72201
(501) 682-6302
Nicholas.Bronni@arkansasag.gov

